                  Department of Veterans Affairs
                  Office of Inspector General



                    Office of Healthcare Inspections

Report No. 14-01467-256



             Healthcare Inspection 



Coordination and Delivery of Medical 

          Care Concerns 

 VA Black Hills Health Care System 

     Fort Meade, South Dakota 





August 20, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted a review
in response to allegations received by Senator Tim Johnson’s office concerning poor
coordination and delivery of care at the VA Black Hills Health Care System (system),
Fort Meade, SD.

We were unable to substantiate the allegation that the telephone contact and triage
process in place during 2012 was cumbersome, resulted in delayed responses from
primary care providers to patients calling for medical care or advice, or was set up to
divert calls away from primary care providers.

We did not substantiate the allegation that a veteran’s spouse received inaccurate
information on obtaining emergency care outside of the system. The staff at the system
followed the system policy when providing information on where to take the veteran for
care.

We did not substantiate the allegation of “negligence and medical errors” at the system
during the veteran’s evaluation and subsequent admission in November 2012.
Review of the electronic health records showed appropriate care of the veteran’s
symptoms as they developed.

We did not substantiate the allegation that VA did not make the veteran aware of all
alternatives to care related to podiatry concerns. The veteran was seen by system
podiatrists and treated appropriately. Referrals were made for non-VA care when
indicated.

We did not substantiate the allegation that a veteran’s spouse was denied care because
of difficulty coordinating care under the Civilian Health and Medical Program of the
Department of Veterans Affairs—CHAMPVA. The spouse chose to use non-VA care,
when VA providers were available. VA does not fill prescription medications for
CHAMPVA patients who receive care from non-VA providers.

We made no recommendations.

Comments
The Acting Veterans Integrated Service Network and System Directors concurred with
the report. (See Appendixes A and B, pages 11–12 for the Directors’ comments.)




                                                            JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for
                                                             Healthcare Inspections



VA Office of Inspector General                                                                     i
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD



                                          Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted a
review in response to allegations received by Senator Tim Johnson’s office concerning
poor coordination and delivery of medical care at the VA Black Hills Health Care System
(system), Fort Meade, SD. The purpose of this review was to determine if the
allegations had merit.

                                      Background

The system is part of Veterans Integrated Service Network (VISN) 23 and has divisions
at Fort Meade and Hot Springs, SD. The system provides primary and secondary
medical and surgical care, residential rehabilitation treatment program services,
extended nursing home care, and tertiary psychiatric inpatient care. The system has
sharing arrangements with Ellsworth Air Force Base, the South Dakota National Guard,
and other community partners as well as affiliations with the University of South Dakota
School of Medicine, South Dakota State University Nursing and Pharmacy Programs,
and Western Dakota Technical Institute. The system also maintains affiliations with a
variety of other disciplines including podiatry. The Fort Meade division has an
emergency department (ED), medical/surgical beds, a medical/surgical intensive care
unit, mental health beds, and two community living centers. The Hot Springs division
has an urgent care center (UCC) that is open 24 hours a day, 7 days a week and
provides inpatient acute medical and community living center patient services; however,
it does not provide surgical care. Primary care is provided through a patient aligned
care team (PACT) consisting of a provider, a Registered Nurse (RN) case manager, a
Licensed Practical Nurse, and a clerk. The Fort Meade division has five PACTs, and
the Hot Springs division has three PACTs.

In January 2014, the OIG received a congressional request to review allegations
regarding poor coordination and delivery of medical care at the system. Specifically, the
allegations stated that:
   	 The system in place for patients to contact their primary care provider (PCP)
      is cumbersome, results in delayed responses from the PCP to the patient,
      and is set up to divert calls away from the PCP.
   	 The spouse of a veteran was given inaccurate information regarding emergency
      medical care outside of the system when calls were made to the system in
      November 2012.
   	 A veteran who received care from providers and nursing staff at the system in
      November 2012 experienced “negligence and medical errors.”
   	 VA did not make the veteran aware of all alternatives to care related to podiatry
      concerns.
   	 The system denied care to a veteran’s spouse through Civilian Health and
      Medical Program of the Department of Veterans Affairs (CHAMPVA).




VA Office of Inspector General                                                                    1
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD



                            Scope and Methodology 

We interviewed the complainants prior to a site visit on February 26–27, 2014. During
our site visit, we interviewed leadership, managers, RNs, PACT team members, and
other staff with information relevant to the allegations.

We reviewed pertinent electronic heath record (EHR) and non-VA hospital records. We
also reviewed relevant VHA and system policies, Patient Advocate Tracking System
data, incident reports, root cause analyses, Joint Commission reviews for cause, peer
reviews, and tort claims for fiscal year 2013.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                    2
                Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD



                                          Case Summary 

The veteran is in his early 70s with chronic medical issues including rheumatoid
arthritis, scarring of the lungs requiring oxygen use at night, high blood pressure,
inflammation of the stomach lining, and a heart attack. The veteran’s primary care had
been provided at the Hot Springs division from 2001–2006 and at the
Fort Meade division since 2007.        A private rheumatologist, pulmonologist, and
gastroenterologist are currently seeing the veteran utilizing non-VA care coordination,
formerly known as VA fee basis care.

Review of the EHR showed that, in November 2012, the veteran presented to the UCC
at Hot Springs around noon complaining of nausea, vomiting, and diarrhea that had
begun the previous night. The veteran complained of back and rib pain due to
continuous vomiting. The veteran had difficulty breathing at home, so the spouse had
started the veteran’s oxygen (prescribed for night use) at 5 liters per minute and brought
the veteran to the UCC.

The RN noted in the EHR that the veteran arrived on oxygen with persistent low oxygen
levels. The veteran received intravenous (IV) fluids for dehydration. The UCC provider
ordered an electrocardiogram (EKG), routine blood work, blood cultures, an arterial
blood gas,1 and a portable chest x-ray.

Respiratory therapy personnel reduced the oxygen flow to 3 liters per minute based on
the arterial blood gas results, and the veteran’s oxygen level subsequently improved.
The veteran received antibiotic and anti-nausea medications per IV while in the UCC.
The UCC provider documentation indicated the veteran complained of nausea,
vomiting, and shortness of breath but had no complaints of chest pain, new muscle or
joint pain, nerve tingling, or arm or leg numbness. The UCC provider admitted the
veteran with the diagnoses of pneumonia and dehydration and instituted continuous
heart rate and rhythm monitoring.

The admitting provider’s EHR documentation showed that the veteran had a 24-hour
history of nausea, vomiting, and diarrhea with light-headedness and bilateral mid-back
and rib pain from vomiting. Per physical exam, the provider noted decreased lung
sounds to both lung bases; increased heart rate with normal heart rhythm; tenderness
of the lower back, spine, and bilateral ribs; a soft abdomen without tenderness; and
extremities with a mild inflammatory deformity consistent with rheumatoid arthritis. The
provider’s assessment further noted severe dehydration that was responding well to IV
fluids. The initial work-up showed the possibility of a gastrointestinal infection or
pneumonia. The result of a portable chest x-ray done while the veteran was in the UCC
was inconclusive for the diagnosis of pneumonia. The provider continued the IV fluids
and IV antibiotics.



1
 An arterial blood gas is a test measuring oxygen and carbon dioxide levels in the blood to assist in determining
how well the lungs are functioning.


VA Office of Inspector General                                                                                      3
                 Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD


After admission to the unit, the RN documented that the veteran complained of
vomiting, diarrhea, and back and rib pain as well as intermittent tingling of the right
hand. The nursing skin assessment documented no abnormalities. The RN noted the
veteran was at high risk for falling when getting up without assistance. According to the
EHR, the RN placed the veteran in a room close to the nurse’s station, locked the bed in
the low position, activated the bed alarm,2 and instructed the veteran to use the call light
for assistance.

The EHR documentation showed the veteran received three medications in the early
evening: an oral pain medication an oral anti-diarrhea medication at 5:57 p.m., and an
IV pain medication for continued pain. The RN documented that the veteran’s heart
rate remained high with a normal rhythm.

The RN reassessment, completed around 8:00 p.m., indicated that the veteran
complained of leg pain; the RN could not feel leg pulses and noted an uneven
discoloration of the skin of the right leg. Using a Doppler ultrasound device,3
the RN was able to detect evidence of blood flow in the left leg but not in the right leg.
The RN contacted the on-call provider to evaluate the veteran’s leg.

The provider assessed the veteran and documented that the veteran stated the leg pain
was not present on admission but began suddenly that evening. The provider
determined that the veteran was possibly having an acute arterial blockage in his right
leg and needed a higher level of care. The provider wrote orders for the veteran to be
transferred to a non-VA hospital that offered vascular surgery services. The provider
approved an additional dose of pain medication because of continued complaints of
severe pain. The RN gave the additional dose of IV pain medication.

The Emergency Medical Service (EMS) staff arrived shortly after the veteran received
the additional dose of IV pain medication. EMS staff documented that while they were
getting information from the RN outside the veteran’s room, they heard the veteran
talking in the room. When EMS staff entered the room, they noted the veteran was
difficult to arouse. The change in mental status was attributed to the effects of the pain
medication. EMS staff consulted with the VA staff, and the veteran received a
medication to reverse the effects of the pain medication. The veteran became
responsive and was able to answer EMS staff questions.

The EMS ambulance left the Hot Springs division around 10:00 p.m. and transported
the veteran to a non-VA hospital approximately 55 miles away. EMS staff continued
oxygen, IV fluids, and heart monitoring. An EKG performed en route, showed a normal
heart rhythm with an occasional extra, abnormal heartbeat. The veteran received
IV pain medication while enroute for leg pain and the EMS staff noted that the patient
slept during transport.



2
  A bed alarm is an alarm that sounds if the patient gets out of bed; it is used for patients who are at risk for falling 

when getting up without assistance. 

3
  A Doppler ultrasound device uses reflective sound waves to evaluate blood flow through a blood vessel.



VA Office of Inspector General                                                                                                4
                 Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD


The ED provider at the non-VA hospital documented the veteran had a regular heart
rhythm, no respiratory distress, no extremity edema, and no gross weakness upon
arrival. Additionally, the EKG was interpreted as elevated heart rate with an occasional
extra abnormal heartbeat. The ED provider wrote that the veteran had obvious vascular
blockage in the right leg and contacted a surgeon for immediate surgical management.

The surgeon documented the veteran had advanced restricted blood flow of the right
leg with most likely a blood clot in the right iliofemoral system4 from atrial fibrillation.5
The surgeon based his diagnosis on the physical exam. According to the EHR and
other documentation, this patient did not have a history of atrial fibrillation, nor do
available records indicate that atrial fibrillation was noted on EKG or telemetry
monitoring. The surgeon did not order imaging studies such as a Magnetic Resonance
Imaging or Computed Tomography scan with contrast media6 because the use of
contrast media may increase the risk of kidney damage, and the veteran’s blood tests
indicated diminished kidney function. As imaging with contrast media was not an
option, the surgeon decided to take the veteran emergently to surgery in the early
morning hours to explore the veteran’s right groin for a possible blood clot.

The postoperative diagnosis was acute severe right lower extremity inadequate blood
flow secondary to a right iliac vessel blood clot due to narrowing from plaque formation.7
The surgeon removed the blood clot and performed an arterial bypass that returned
circulation to the right leg. The surgeon also made incisions along the front and side of
the leg to relieve elevated, harmful pressures, due to potential damage to the leg
muscles from the lack of blood flow.

The veteran stayed at the non-VA hospital for 7 days and was discharged with orders
for wound care. The system referred the veteran to a non-VA clinic for wound care and
the veteran reported the leg wounds were healed in May 2013.




4
  The arterial blood supply of the legs begins with the iliofemoral system.

5
  Atrial fibrillation is a common type of abnormal heart rhythm that results in irregular heartbeat and is associated

with that may block blood vessels. 

6
  The use of contrast media enhances the visibility of blood vessels during medical imaging. 

7
  Plaque is made of fat, cholesterol, calcium and other substances found in the blood that can build up over time

inside artery walls causing blockage.



VA Office of Inspector General                                                                                           5
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD



                                 Inspection Results 

Issue 1: Telephone Triage Process

We were unable to substantiate the allegation that the telephone contact and triage
process in place during 2012 was cumbersome, resulted in delayed responses from
PCPs to patients calling for medical care or advice, or was set up to divert calls away
from PCPs.

In 2010, the system implemented a call center staffed with RNs, medical administration,
and pharmacy staff. Patients can call into the center through a separate number or
transfer from the main system number. The call center is used to obtain medical
advice, schedule appointments, and request pharmacy refills. The call center RNs use
a telephone triage program designed to facilitate access to care and provide
consultation and assistance to patients and their families regarding health information,
home care measures, and navigation of the system. RN calls are recorded as notes in
the patient EHR.

The veteran’s spouse reported making several calls to VA on the day of the veteran’s
admission in 2012. The spouse reports the first call was to the Hot Springs division
seeking advice as the veteran was experiencing vomiting, diarrhea, and had developed
difficulty breathing; the call was transferred to an RN. The RN instructed the spouse to
take the veteran to the Hot Springs division for evaluation (approximately 12 miles from
the veteran’s home). However, the spouse wanted to speak with the veteran’s PCP at
the Fort Meade division to get permission to seek care from a non-VA hospital, over
40 miles away from their home. The spouse, therefore, made a second call to the Fort
Meade division and reportedly left the veteran’s PACT RN Case Manager a voicemail
message requesting a return call. The spouse reported making a third call to the
Fort Meade division and spoke to an RN from a different PACT. The RN from the
different Fort Meade PACT instructed the spouse to take the veteran to the system’s
Hot Springs division for evaluation.

We were unable to verify the system received calls from the spouse on this day
because there are no records of calls in the EHR. Additionally, the complaint is based
on events that occurred in November 2012, and we could not assess how the spouse
reported the calls were triaged. We interviewed triage and PACT RNs. One person
interviewed expressed concern about poor job performance of an RN who had been
responsible for returning patient telephone calls at the time of the alleged incident.
However, this RN was no longer working at the system and could not be interviewed.

During our interviews, staff reported that calls should not be routed directly to a PCP.
Instead, the call should be routed to the PACT RN Case Manager who will either
respond to the issue or discuss it with the PCP. Patients may leave a voicemail for the
PACT RN when the PACT RN is not available to answer a call. The system did not
have a policy addressing timeframes for RNs to return calls. During our interviews, all
PACT staff stated that they returned calls as their schedules allowed; the goal was to



VA Office of Inspector General                                                                    6
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD


return calls received in the morning before noon and calls received in the afternoon
before leaving for the day.

We found that the PACT RN telephone audio recording instructed callers to dial 911 for
medical or mental health emergencies. The call center RN also advises callers to dial
911 in an emergency or to go to the nearest hospital for evaluation if the caller is stable
enough to travel by car. Depending on the caller’s location, the nearest facility may be
a VA or non-VA hospital.

As of summer 2013, all PACTs now provide patients with information on cards, instead
of flyers, that include the toll free and local clinic telephone numbers, the call center
telephone number, and the telephone extensions for the assigned PACT nurses. We
were able to get our calls routed appropriately when we called the telephone system
and entered the telephone extensions provided on the PACT cards.

Issue 2: Emergency Medical Care

We did not substantiate the allegation that the spouse of a veteran did not receive
accurate information regarding emergency medical care outside of the system.

As noted above, the spouse reported making three phone calls to VA on the day the
veteran was admitted to the Hot Springs division. According to the spouse, the
Fort Meade division PACT RN who advised taking the veteran to the nearest VA facility
stated the veteran would be responsible for any bills incurred at the non-VA hospital if
the veteran were to go to the private facility first rather than the closest VA facility which
was the Hot Springs division.

We interviewed current PACT and call center staff, and all staff stated that if a patient or
spouse calls with complaints of an urgent or emergent nature, staff will instruct the
patient or family to go to the nearest facility. The nearest facility may be VA or non-VA.
All of the staff we interviewed would have advised the veteran or spouse to go to the
Hot Springs division 12 miles away, not to an emergency room over 40 miles away.
These instructions are consistent with the system’s RN triage protocols and policy on
non-VA care.

Issue 3: Negligent Care

We did not substantiate the allegation that the veteran experienced “negligence and
medical errors” in care at the system during staff evaluations and prior to admission to a
non-VA hospital in November 2012. We reviewed the veteran’s EHR and interviewed
relevant nursing staff. We were not able to interview four staff who participated in the
veteran’s care, as they no longer worked at the system.

Medical Care. The veteran arrived at the Hot Springs division UCC for evaluation
approximately 3 hours after the spouse first received advice to do so. The UCC
provider started treatment for dehydration, performed appropriate work-up based on the
veteran’s symptoms, and gave medications to fight infection and reduce nausea. The



VA Office of Inspector General                                                                    7
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD


EHR did not include documentation that the veteran had complaints of leg pain or
abnormality of the skin during the UCC stay.

The admitting provider documented that the veteran’s dehydration condition responded
to treatment, as the veteran was no longer light-headed. The RN documented in the
admission note a full skin assessment (no abnormalities noted), and the pain
assessment revealed complaints of lower back and rib pain (no leg pain noted). The
first documentation of a complaint of right leg pain was at 8:00 p.m. when the RN
reassessed the veteran at shift change. The RN assessed the right leg, noted no
pulses, skin color changes, and contacted the on-call provider to evaluate the veteran.
The medical provider on duty went to the veteran’s bedside, noted absent pulses, and
arranged transfer of the veteran to a non-VA hospital that could provide a higher level of
care and an evaluation by a vascular surgeon.

Nursing Care. The veteran reported getting out of bed after admission to the medical
unit to use the restroom on at least two occasions without using the call light to request
assistance and soiling the bed, floor, and bathroom with feces. The veteran stated that
the nasal cannula tubing supplying oxygen fell in the feces but was reused after the
patient washed it off in the sink and that staff did not assist the veteran nor clean the
bathroom after the incidents. The veteran and spouse were also upset that the staff
continued to tell the veteran to use the call light to alert staff when needing assistance.

Review of the EHR showed that the veteran had two episodes of diarrhea during the
admission and received an anti-diarrheal medication. An RN documented the veteran
had a bed alarm that sounded three times during admission and the veteran had a
bedside commode. The RN also documented incontinence care for the veteran and
included a remark that it was helpful to have the spouse present since the veteran was
not using the call light system.

We interviewed various nursing staff to determine the interventions implemented for
patients at high risk for falls, with incontinence, with diarrhea, or who do not use the call
light system. All staff responded they would place the patient in a room near the nurse’s
station, place the patient’s bed in a low position, activate the bed alarm, and provide the
patient a bedside commode. The identified interventions stated were consistent with
documentation in the veteran’s EHR.

The EHR review indicated appropriate triage and care for the symptoms the veteran
was experiencing.

Issue 4: Podiatry Care Options

We did not substantiate the allegation that VA did not make the veteran aware of all
alternatives to care related to podiatry concerns. The system podiatrists provided care
from 2005 through 2009 and offered molded shoes, padding for toes, and toe callus
removal, along with education for foot care. We found no indication or discussion of a
need for surgical intervention in the EHR.




VA Office of Inspector General                                                                    8
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD


In 2013, a podiatry consult was submitted and the veteran was referred to a non-VA
provider due to the inability of the system to provide timely care. Two non-VA podiatry
providers evaluated the veteran in July 2013. The first provider offered the patient
surgical options; however, the patient requested to see a second provider who advised
the patient against surgery because of the risk.

Issue 5: Denial of Care

We did not substantiate the allegation that the system denied the spouse care under
CHAMPVA. We reviewed the spouse’s EHR and the relevant system policies.

Documented in the spouse’s EHR was a request for a podiatry referral at the
Fort Meade division, but the Fort Meade podiatry clinic had a long wait time for
appointments. At the time, the spouse reported a desire to seek care in the private
sector using CHAMPVA insurance. One month later, the spouse requested a podiatry
referral at the Hot Springs division because of available appointments at this location.
The spouse later cancelled the Hot Springs division podiatry appointment and
attempted to obtain a referral to a private podiatrist. The triage RN documented in the
EHR that the spouse was informed VA does not provide private podiatry service
referrals for CHAMPVA and the system would not be responsible for the CHAMPVA
care costs. The spouse indicated understanding as documented in the EHR. When
interviewed, the spouse said a prescription written by a private podiatrist was faxed to
the system; however, VHA is not responsible for the cost of CHAMPVA care received in
the private sector and therefore would not fill these prescriptions.

                                      Conclusions 

We were unable to substantiate the allegation that the telephone contact and triage
process in place during the timeframe of the complaint was cumbersome or resulted in
delayed responses from the PCP to the patient calling for medical care or advice. The
call center was initiated in 2010. The same system is still in place and instructs callers
to use 911 in emergencies. The PACTs provide cards to the patients that include the
direct telephone extension of the PACT RN and Licensed Practical Nurse, and
telephone numbers for the system and after hours call center RN.

We did not substantiate the allegation that the spouse received false information on
obtaining emergency care outside of the VA system. System staff instructed the spouse
to bring the veteran to the Hot Springs division for evaluation. We found this to be the
appropriate response to the urgent medical conditions the veteran’s spouse described
that the veteran was experiencing, as the Hot Springs division was the closest location
and able to treat the conditions.

We did not substantiate the allegation that the veteran experienced “negligence and
medical errors” at the system. We found that the veteran received appropriate medical
and nursing care for the symptoms and issues as they were experienced and reported
to medical or nursing staff.



VA Office of Inspector General                                                                    9
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD


We did not substantiate the allegation that VA did not make the veteran aware of all
alternatives to care related to podiatry concerns. The system podiatrists provided care
from 2005 through 2009 and there is no indication or discussion of a need for surgical
options in the EHR. When the veteran was referred to podiatry services again in
July 2013, the veteran was seen by non-VA care providers under a new consult.

We did not substantiate the allegation that the spouse was denied care under
CHAMPVA through the system’s pharmacy service. The system is not responsible for
care provided in the private sector through CHAMPVA or the prescriptions related to
that care.

We made no recommendations.




VA Office of Inspector General                                                                   10
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD
                                                                                        Appendix A
                     Acting VISN Director Comments


               Department of
               Veterans Affairs                               Memorandum

    Date:      August 1, 2014

   From:       Acting Director, VA Midwest Health Care Network (10N23)

   Subject: Draft Report—Healthcare Inspection— Coordination and Delivery
            of Medical Care Concerns, VA Black Hills Health Care System,
            Fort Meade, South Dakota

      To:	     Director, Dallas Regional Office of Healthcare Inspections (54DA)
               Director, Management Review Service (VHA 10AR MRS OIG Hotline)

               Thank you for your inspection of the VA Black Hills Health Care
               System in response to the allegations made and the opportunity to
               review your findings and conclusions. I concur with the report.




               Acting Director, VA Midwest Health Care Network (10N23)




VA Office of Inspector General                                                                   11
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD
                                                                                        Appendix B
                         System Director Comments


               Department of
               Veterans Affairs                               Memorandum

    Date:      August 1, 2014

    From:      Director, VA Black Hills Health Care System (568/00)

   Subject: Draft Report—Healthcare Inspection— Coordination and Delivery
            of Medical Care Concerns, VA Black Hills Health Care System,
            Fort Meade, South Dakota

      To:      Director, VA Midwest Health Care Network (10N23)

               1. The VA Black Hills Health Care System concurs with the
                  report – Healthcare Inspection – Coordination and Delivery of
                  Medical Care Concerns, VA Black Hills Health Care System,
                  Fort, Meade, South Dakota.

               2. If you have any questions, you may contact the Director at
                  VA Black Hills Health Care System at (605) 347-2511
                  Extension 7170.




               Stephen R. DiStasio, FACHE 

               Director, VA Black Hills Health Care System (568/00) 





VA Office of Inspector General                                                                   12
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD
                                                                                        Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Trina Rollins, MS, PA-C, Team Leader
                         Gayle Karamanos, MS, PA-C
                         Cathleen King, MHA, CRRN
                         Misti Kincaid, BS 

                         Alan Mallinger, MD





VA Office of Inspector General                                                                   13
              Coordination and Delivery of Medical Care Concerns, VA Black Hills HCS, Fort Meade, SD
                                                                                        Appendix D

                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Midwest Health Care Network (10N23)
Director, VA Black Hills Health Care System (568/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Barrasso, Michael B. Enzi, Deb Fischer, Mike Johanns,
 Tim Johnson, John Thune
U.S. House of Representatives: Cynthia M. Lummis, Kristi Noem, Adrian Smith



This report is available on our web site at www.va.gov/oig.




VA Office of Inspector General                                                                   14
